<html>
<title> - EXAMINING DHS SCIENCE AND TECHNOLOGY DIRECTORATE'S ENGAGEMENT WITH ACADEMIA AND INDUSTRY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                   EXAMINING DHS SCIENCE AND TECHNOLOGY 
                    DIRECTORATE'S ENGAGEMENT WITH ACA -
                    DEMIA AND INDUSTRY

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     CYBERSECURITY, INFRASTRUCTURE
                        PROTECTION, AND SECURITY
                              TECHNOLOGIES

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 19, 2015

                               __________

                           Serial No. 114-17

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
                               
                   U.S. GOVERNMENT PUBLISHING OFFICE
95-681 PDF              WASHINGTON : 2015                   
                 
_______________________________________________________________________________________                     
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4c2b3c230c2f393f382429203c622f232162">[email&#160;protected]</a>  
                     
                     
                     
                     
                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION, AND SECURITY 
                              TECHNOLOGIES

                    John Ratcliffe, Texas, Chairman
Peter T. King, New York              Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             Loretta Sanchez, California
Scott Perry, Pennsylvania            Sheila Jackson Lee, Texas
Curt Clawson, Florida                James R. Langevin, Rhode Island
Daniel M. Donovan, Jr., New York     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Brett DeWitt, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk
       Christopher Schepis, Minority Subcommittee Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable John Ratcliffe, a Representative in Congress From 
  the State of Texas, and Chairman, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies...................................................     1
The Honorable Cedric L. Richmond, a Representative in Congress 
  From the State of Louisiana, and Ranking Member, Subcommittee 
  on Cybersecurity, Infrastructure Protection, and Security 
  Technologies:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               Witnesses

Mr. Jacob Parker, Director, Government Relations, Security 
  Industry Association:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Marc A. Pearl, President and Chief Executive Officer, 
  Homeland Security and Defense Business Council:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12
Dr. Samuel H. Aronson, President, American Physical Society:
  Oral Statement.................................................    17
  Prepared Statement.............................................    19

                                Appendix

Questions From Honorable James R. Langevin for Jacob Parker......    31
Questions From Honorable James R. Langevin for Marc A. Pearl.....    31
Questions From Honorable James R. Langevin for Samuel H. Aronson.    33

 
  EXAMINING DHS SCIENCE AND TECHNOLOGY DIRECTORATE'S ENGAGEMENT WITH 
                         ACADEMIA AND INDUSTRY

                              ----------                              


                         Tuesday, May 19, 2015

             U.S. House of Representatives,
                    Committee on Homeland Security,
 Subcommittee on Cybersecurity, Infrastructure Protection, 
                                 and Security Technologies,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:09 a.m., in 
Room 311, Cannon House Office Building, Hon. John Ratcliffe 
[Chairman of the subcommittee] presiding.
    Present: Representatives Ratcliffe, Clawson, Richmond, and 
Langevin.
    Mr. Ratcliffe. The Committee on Homeland Security, 
Subcommittee on Cybersecurity, Infrastructure Protection, and 
Security Technologies will come to order.
    The subcommittee meets today to examine the Department of 
Homeland Security's Science and Technology or S&T Directorate. 
The ability for S&T to engage with academia and industry is a 
critically important function, especially in times of shrinking 
budgets and limited resources.
    S&T must be able to leverage the resources of academia, 
Federally-Funded Research and Development Centers, industry, 
and the full spectrum of what S&T Under Secretary Dr. Reginald 
Brothers has called the ``S&T ecosystem'' in order to better 
enable the DHS components to carry out their missions to 
protect the homeland.
    To accomplish this, Dr. Brothers has made the development 
of the Homeland Security Industrial Base one of his top 
priorities. Dr. Brothers is modeling the Homeland Security 
Industrial Base off of the Department of Defense's Defense 
Industrial Base or DIB, which is largely successful in being 
the private-sector engine for our military.
    While the DOD model is a good one for DOD, there needs to 
be greater focus on meeting the needs of the Department of 
Homeland Security. The DOD DIB model cannot simply be applied 
to DHS; they are vastly different agencies, on vastly different 
scales, and have different mission needs of their technology 
investments. DHS does not buy, acquire, or conduct research and 
development on the same scale as the military.
    I think Dr. Brothers is on the right path, but we need to 
ensure that we are addressing the needs of DHS, messaging the 
needs and direction of its components to the small and medium-
sized businesses that are interested in doing business in the 
homeland security ecosystem.
    The S&T Directorate has several programs and divisions 
within the directorate aimed at enabling the communication and 
notification of business and academic research opportunities 
including: The S&T Small Business Innovation Research Program; 
the Technology Transfer Program; and the Commercialization 
Office. Over the past year the subcommittee has met with 
several industry, academic, and Federally-Funded Research and 
Development Centers that collaborate with S&T to better 
understand the very broad scope and research and development 
mandate that S&T is presently faced with.
    Additionally, we have learned about many of the successes 
of the directorate, but also many of the challenges that S&T 
has in fulfilling its mission. Feedback from industry and 
academia informs us that S&T does not always effectively 
communicate its R&D priorities and the technology needs of the 
components it serves.
    In turn, this poor outreach and messaging leaves small and 
medium-sized businesses in the dark on how they should best 
invest their internal R&D dollars to position themselves to 
compete and win contracts within the Department.
    Additionally, S&T's coordination of awarding contracts to 
small and medium-sized businesses, FFRDCs, and academia is 
inconsistent within the divisions of the directorate, which 
must be problematic for these organizations that don't have the 
time or resources to wait around for several months for S&T to 
award a contract.
    This appears to be a Department-wide issue however it is 
particularly problematic when trying to develop R&D contracts 
in a very fast-moving and dynamic technological environment.
    Some of the actions that Dr. Brothers has taken to address 
the communication of priorities and notification of business 
and research opportunities have been to develop and publish 
visionary goals developed in consultation with industry 
leaders. These visionary goals coupled with the strategic plan 
should help industry and academia better understand S&T's 
priorities to inform their own technology developments to meet 
the needs of the DHS components.
    Today the subcommittee meets to examine the progress Dr. 
Brothers has made in addressing these challenges, to hear 
directly from academia and industry representatives on their 
engagement experience with S&T, and what improvements still 
need to be made.
    I applaud Dr. Brothers for the steps that he has taken to 
create visionary goals and the strategic plan, although it 
remains to be seen if this strategic plan can be properly 
implemented and effectively communicated to S&T's academic and 
industry partners.
    In Dr. Brothers' testimony before this subcommittee last 
fall, he acknowledged the work S&T still has to do to improve 
transparency and information sharing with industry and academia 
so that they may align their investments to better suit DHS's 
S&T and DHS component needs.
    I look forward to working with Dr. Brothers, industry, 
FFRDCs, and academic leaders to help make S&T successful in 
their mission to serve the Department.
    The Chairman now recognizes the Ranking Minority Member of 
the subcommittee, the gentleman from Louisiana, Mr. Richmond, 
for any statement that he may have.
    Mr. Richmond. Thank you, Chairman Ratcliffe for yielding, 
and thank you for convening this hearing on the Science and 
Technology Directorate.
    I, too, want to thank the representatives of industry and 
business for being here today. I especially want to thank Dr. 
Sam Aronson for agreeing to give us his scientific research 
perspective. This is an issue that he is well-versed in. We are 
pleased to have you all here today.
    But I want to take a moment to talk about Dr. Aronson's 
experience. Not only are you the current president of the 
American Physical Society and you are representing them today, 
some 50,000 physicists throughout the country, you are also a 
former director of the Brookhaven Laboratory, where you now 
direct the RIKEN Research Center for the study of nuclear 
physics, and you are a research professor at Stony Brook 
University's College of Engineering. We are grateful that you 
found the time to appear before us today. Thank you.
    The Science and Technology Directorate is an essential 
component of the Department of Homeland Security's efforts. The 
mission of the Science and Technology Directorate is to help 
provide innovative science and technology solutions for the 
Homeland Security enterprise that will strengthen America's 
security posture and resiliency capabilities.
    In order to meet the needs of the many front-line 
components of DHS, covering all mission areas, we have seen the 
S&T Directorate strive to rapidly develop and deliver 
knowledge, analysis, and innovative solutions that advance the 
mission of the Department. It is a complex and difficult 
mission. The ultimate goal of S&T, as I see it, is to 
strengthen the homeland security first responders' capabilities 
to protect and respond to disaster, whether it is a natural 
disaster, like a hurricane, earthquake, flood, or tornado, or a 
man-made event.
    In 2009, before I came to this subcommittee, the National 
Academy of Public Administration, or NAPA, published a 
comprehensive overview of the directorate, and this 
subcommittee initiated its own year-long comprehensive review 
of S&T, led by then-Chairwoman Yvette Clarke. The purpose was 
to identify areas within the directorate that could use a fresh 
set of eyes and additional oversight on modifications or 
legislative authorities. As a result, we produced a 
comprehensive, bipartisan bill, which passed the House 
unanimously in 2010.
    We are at a similar moment, Mr. Chairman. I understand that 
you and Chairman McCaul plan to offer an authorization of S&T 
later this summer, and this hearing is a first step. I am 
hoping that some of the things we learned during the process in 
2010 can be used in this upcoming authorization effort. One of 
the things we did learn was that with such a large and complex 
portfolio, the directorate has found it difficult to craft a 
cohesive, comprehensive strategy.
    The NAPA analysis suggested that the Department had not 
developed a clear, risk-based methodology to determine what 
research projects to fund, how much to fund, and how to 
evaluate a project's effectiveness or usefulness. These 
questions remain today.
    I want to support the scientific R&D efforts of the 
directorate in every way that I can, and part of that help will 
be to plan for and authorize research rules and metrics that 
are more fully considered and comprehensively established.
    We all know these are challenging budget times, especially 
as the appropriations process is upon us. After I reviewed the 
2012 sequester cuts, that basically left S&T with little more 
than the lights on, I suggest that we will need to be prepared 
to defend the R&D funding at S&T and defend it from sequester 
efforts that can damage scientific efforts and the Department 
at large.
    Striving to do more with less is always the hallmark of an 
efficiently-run business or Government program. But trying to 
protect our citizens and our Nation with programs that are 
backed by underfunded and depleted science and technology 
research assets is another matter.
    With that, Mr. Chairman, I thank you and I yield back.
    [The statement of Mr. Richmond follows:]
             Statement of Ranking Member Cedric L. Richmond
                              May 19, 2015
    Thank you Chairman Ratcliffe for convening this hearing on the 
Science and Technology Directorate.
    I too, want to thank the representatives of industry and business 
for being here today, and I especially want to thank Dr. Sam Aronson 
for agreeing to give us his scientific research perspective--this is an 
issue that he is well-versed in. We are pleased to have you all here 
today.
    In fact Dr. Aronson, I want to make sure that your experience is 
sufficiently reflected in the record. Not only are you the current 
president of the American Physical Society, and you are representing 
them today--some 50,000 physicists throughout the country, you are also 
a former director of the Brookhaven Laboratory, where you now direct 
the RIKEN Research Center for the study of nuclear physics, and you are 
a research professor at Stony Brook University's College of 
Engineering. We are grateful that you found the time to appear before 
us today.
    The Science and Technology Directorate is an essential component of 
the Department of Homeland Security's efforts. The mission of the S&T 
Directorate is to help provide innovative science and technology 
solutions for the Homeland Security Enterprise that will strengthen 
America's security posture, and resiliency capabilities.
    In order to meet the needs of the many front-line components of 
DHS, covering all mission areas, we have seen the S&T Directorate 
strive to rapidly develop and deliver knowledge, analyses, and 
innovative solutions that advance the mission of the Department. It is 
a complex and difficult mission.
    The ultimate goal of S&T, as I see it, is to strengthen the 
homeland security first responders' capabilities to protect and respond 
to disaster, whether it is a man-made event, or hurricanes, 
earthquakes, floods, or tornadoes.
    In 2009, before I came to this subcommittee, the National Academy 
of Public Administration or NAPA, published a comprehensive overview of 
the Directorate,\1\ and this subcommittee initiated its own year-long 
comprehensive review of S&T, led by then-Chairwoman, Yvette Clarke.
---------------------------------------------------------------------------
    \1\ http://www.napawash.org/2009/1374-dhs-science-and-technology-
directorate-developing-technology-to-protect-america.html.
---------------------------------------------------------------------------
    The purpose was to identify areas within the directorate that could 
use a fresh set of eyes and additional oversight or modifications to 
legislative authorities. As a result, we produced a comprehensive, 
bipartisan bill, which passed the House unanimously in 2010.
    We are at a similar moment Mr. Chairman, as I understand that you 
and Chairman McCaul plan to offer an authorization of S&T later this 
summer, and this hearing is a first step.
    I am hoping that some of the things we learned during that process 
in 2010 can be used in this upcoming authorization effort.
    One of the things we did learn was that with such a large and 
complex portfolio, the directorate has found it difficult to craft a 
cohesive, comprehensive strategy.
    The NAPA analysis suggested that the Department had not developed a 
clear risk-based methodology to determine what research projects to 
fund--how much to fund--and how to evaluate a project's effectiveness 
or usefulness. These questions remain today.
    I want to support the scientific R&D efforts of the directorate in 
every way that I can, and part of that help will be to plan for and 
authorize research rules and metrics that are more fully considered and 
comprehensively established.
    We all know these are challenging budget times, and especially as 
the appropriations process is upon us. After I reviewed the 2012 
sequester cuts that basically left S&T with little more than the lights 
on--I suggest that we will need to be prepared to defend the R&D 
funding at S&T, and to defend it from sequester efforts that can damage 
the scientific efforts in the Department at large.
    Striving to do more with less is always the hallmark of an 
efficiently-run business or Government program, but trying to protect 
our citizens and Nation with programs that are backed by underfunded 
and depleted science and technology research assets, is another matter.
    Thank you Mr. Chairman and I yield back.

    Mr. Ratcliffe. I thank the gentleman and remind the other 
Members of the committee that opening statements may be 
submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                              May 19, 2015
    Good morning, Mr. Chairman, and thank you for holding this hearing 
on the Science and Technology Directorate.
    I join you in welcoming our witnesses from industry and business 
associations, and I particularly want to thank Dr. Sam Aronson for 
joining us today.
    Many of my concerns about the Science and Technology Directorate 
stem from our work in the committee a few years ago during my 
Chairmanship, when we all worked together over a period of 2 years to 
pass a comprehensive, bipartisan Science and Technology authorization 
bill. That bill sought to provide much-needed direction for the 
research and development efforts of the Department.
    Within S&T, conducting R&D on technologies is a key component of 
DHS's efforts to detect, prevent, and mitigate terrorist threats.
    Many components of DHS conduct different types of R&D for their 
respective missions, but GAO tells us that DHS does not have a unified 
Department-wide policy defining R&D, or guidance directing components 
to report R&D activities and investments.
    We have had questions over the years on how we can determine the 
Department's total investment in R&D across all the components, and how 
S&T can effectively oversee components' R&D efforts to align them with 
agency-wide R&D goals and priorities.
    If we are going to authorize S&T this year, we should establish 
policies and guidance for defining R&D across the Department, and 
having clear processes and procedures for overseeing R&D, that would 
provide more oversight of R&D investments across the board.
    Though I have met with Under Secretary Brothers, it is still 
unclear to me whether there is a system to monitor research milestones 
and collect feedback from customers and end-users on the effectiveness 
of the services delivered by the directorate.
    These milestones and feedback would allow this committee to offer 
an objective assessment of the successes and failures of the agency.
    Without objective measurement tools, it is impossible for Congress 
to assess what should be changed or what should be kept.
    Today, we are going to hear from industry associations and academia 
on how they interact with the research and development efforts of the 
directorate.
    I hope to hear some suggestions on how those relationships--among 
the directorate, industry, and academia--can be improved, particularly 
in the Small Business Innovation Research program, or SBIR.
    Finally, I believe we are at a crossroads because in this budget 
atmosphere of sequestered funding, the directorate will be challenged 
to prioritize or eliminate programs that help protect the American 
people today.
    In 2012, just a few years ago, the House passed extreme budget cuts 
to the fiscal year 2012 S&T funding levels with the support of many of 
my Republican colleagues--and they were harsh by any standard.
    There are some who are predicting that we are on the way to more 
cuts, similar to the fiscal year 2012 sequester.
    Officials with cybersecurity responsibilities have seen large 
increases in their budgets, but research and development in the S&T 
budget could be an easy target for offsets, as we have seen before.
    These potential cuts will have consequences, because if you have 
less money for science and technology, you can only do less scientific 
and technological research.
    I caution that the S&T Directorate should be prepared for such a 
possibility in today's budget atmosphere.
    Mr. Chairman, I hope the committee will take these matters 
seriously as we learn how the directorate interacts with industry and 
academia, and its operational programs going forward.
    Thank you, and I yield back.

    Mr. Ratcliffe. We are pleased to have a very distinguished 
panel of witnesses before us today on this important topic.
    Mr. Jake Parker is the director of government relations at 
the Security Industry Association. Welcome, Mr. Parker.
    Mr. Marc Pearl is the president and CEO of the Homeland 
Security and Defense Business Council. Good to see you again, 
Mr. Pearl.
    Dr. Samuel Aronson, as the gentleman from Louisiana stated 
in his opening remarks is the president of the American 
Physical Society. Welcome, Dr. Aronson.
    The witnesses' full written statements will appear in the 
record. I would now like to swear in the witnesses en banc----
    [Witnesses sworn.]
    Mr. Ratcliffe. You may be seated.
    The Chairman now recognizes Mr. Parker for 5 minutes for an 
opening statement.

  STATEMENT OF JACOB PARKER, DIRECTOR, GOVERNMENT RELATIONS, 
                 SECURITY INDUSTRY ASSOCIATION

    Mr. Parker. Good morning Chairman Ratcliffe, Ranking Member 
Richmond, and distinguished Members of the subcommittee.
    I am Jake Parker, director of government relations for the 
Security Industry Association. SIA is a non-profit 
international trade association representing nearly 600 
companies that develop, manufacture, and integrate electronic 
and physical security solutions. Technology provided by the 
security industry plays a key role in DHS component operations, 
and in protecting each of the 16 critical infrastructure 
sectors.
    Thank you for the opportunity to testify before you today 
on the important relationship between the DHS Science and 
Technology Directorate and the private sector. The input I am 
providing here is based on experiences of SIA members in 
working with S&T, which I have collected and summarized for you 
at a high level in order to give you a sense of the nature and 
direction of this partnership.
    If there is any information requested that I cannot provide 
today, I will certainly work with our members to provide 
helpful responses as soon as possible.
    In general, we have seen an increase in S&T efforts to 
engage with industry and we believe the partnership is moving 
in the right direction. In 2013, S&T signed a unique memorandum 
of understanding with the association to promote the use of 
electronics innovation in Homeland Security applications. Since 
taking the helm of the organization last year, Under Secretary 
Brothers and his leadership team have certainly set the right 
tone for improving engagement with industry.
    In fact, almost 1 year ago, Dr. Brothers spoke at our 
annual policy conference, the SIA Government Summit, and gave 
us a preview of his new vision for the agency. This was 
articulated further with the release of his visionary goals 
last year and just last month with the unveiling of S&T's 5-
year strategic plan.
    The plan properly recognizes that technology is evolving so 
quickly that it often outpaces traditional Government R&D and 
acquisition vehicles. Faced with very limited funding as you 
alluded to and personnel, successful DHS operators need what 
Dr. Brothers has called force-multiplying technology.
    Indeed, the rapid pace of innovation in the security 
industry especially in the identity and biometric space holds 
enormous potential to counter current and future homeland 
security threats. A number of S&T projects are underway to 
harness these advances. We believe leveraging them will 
maximize return on taxpayer dollars especially as security 
technology becomes more and more affordable through economies 
of scale as that market expands world-wide.
    The strategic plan calls for ramping up a surge effort to 
engage the homeland security industrial base by fiscal year 
2016. We welcome this and we think that in order to maximize 
the effectiveness of the effort, it should include certain 
elements.
    First, improving and articulating the value proposition of 
doing business with S&T will be necessary. While S&T projects 
ultimately help inform component agency decision making, few 
historically have led to a successful acquisition program.
    Within the industry, one barrier to potential partners is 
skepticism regarding the commitment of participating DHS 
components to the S&T projects that they are working with, 
since they can ultimately choose alternative solutions 
developed through internally-funded research programs.
    It is encouraging to see an acknowledgement of this issue 
within a strategic plan in several proposals on how to better 
coordinate and reduce the duplication of effort between S&T and 
the component agencies.
    The business case could also be improved through portfolio 
balance and prioritization which is one of the organization's 
biggest challenges as the Ranking Member alluded to. Our 
members feel that given the limited size of the S&T budget, the 
portfolio may simply be too large, causing projects to be 
supported at levels insufficient to capitalize on the successes 
that they have as the funding runs out.
    Again, the strategic plan seems to acknowledge this as an 
issue. S&T estimates that the total number of portfolio 
projects would be reduced as funding shifts to higher 
priorities under the plan's provisions. Another critical 
element, we believe, is ensuring the technology vendor 
community is considered a project stakeholder that is on an 
equal footing within users and other parties.
    Some of our members have reported inconsistency in the part 
of DHS personnel as to what communications with industry they 
believe are permitted in the course of a project. Congress 
should consider affirming in any reauthorization legislation 
the appropriateness of communications with industry that can 
help improve program results and ultimately the success of any 
subsequent acquisition.
    Lastly, members feel that communications on available 
opportunities has improved with an increase in the number of 
industry days, speaking engagements, and webinars led by S&T 
leaders, but it could still benefit from additional 
coordination.
    To conclude, what we have heard from S&T leadership on 
their plans to leverage industry partnerships is very 
encouraging. Ultimately, what matters is whether the strategy 
can be carried out in a meaningful way. The Security Industry 
Association is committed to helping facilitate such 
partnerships.
    I appreciate the opportunity to provide this collective 
input from our industry. We stand ready to provide any 
additional information that you may need. Thank you.
    [The prepared statement of Mr. Parker follows:]
                   Prepared Statement of Jacob Parker
                              May 19, 2015
    Good morning Chairman Ratcliffe, Ranking Member Richmond, and 
distinguished Members of the subcommittee. I am Jake Parker, director 
of government relations for the Security Industry Association, a non-
profit international trade association representing nearly 600 
companies that develop, manufacture, and integrate electronic and 
physical security solutions, and employ thousands of technology 
leaders. Technology provided by the security industry plays a key role 
in DHS component operations, and in protecting critical infrastructure 
such as chemical facilities, airports, seaports, mass transit systems, 
the energy sector, and Government facilities.
    Thank you for the opportunity to testify before you today on the 
critically important partnership between the Department of Homeland 
Security (DHS) Science and Technology Directorate (S&T) and the private 
sector. The input I am providing is based on the experiences of SIA 
member companies in working with S&T, which I have collected and 
summarized for you at a high level in order to give you a sense of the 
nature and direction of this partnership.
    I will do my best to answer any questions you may have, however if 
there is any information requested I cannot provide today, I will be 
happy to work with our members to provide helpful responses.
                             new leadership
    Generally we have seen an increase in S&T efforts to engage with 
industry and believe the partnership is moving in the right direction. 
I will highlight aspects of planning or programing at S&T we see as 
positive, as well as several areas identified by our members where 
there is room for significant improvement.
    Since taking the helm of the organization last year, DHS Under 
Secretary for Science and Technology Dr. Reginald Brothers and his 
leadership team have set the right tone for improving engagement with 
industry. In one of his first major speaking engagements following 
Senate confirmation, Dr. Brothers participated in our association's 
annual public policy conference, the SIA Government Summit, and gave us 
a preview of his new vision for the agency. This was articulated 
further with the release of his ``visionary goals'' for the 
organization last year, and just last month with the unveiling of S&T's 
2015-2019 strategic plan.
    The plan correctly acknowledges that technology is now evolving so 
quickly that it often outpaces traditional Government R&D and 
acquisition vehicles. Meanwhile, technology-based solutions are more 
important than ever to achieving DHS component missions. Faced with 
limited funding and personnel, operators need force-multiplying 
technology for success. The rapid pace of technology advancement in the 
security industry, particularly in the identity and biometrics space, 
holds enormous potential to counter current and future homeland 
security threats. Harnessing these advances funded by the private 
sector and developed for commercial and international markets would 
maximize the return on taxpayer dollars, especially as the technology 
become more and more affordable through economies of scale.
                  effective use of industry expertise
    From our perspective, S&T programs that have had the most success 
are often those that integrate off-the-shelf technology developed 
commercially, to provide solutions that both meet operational 
capability gaps and provide new opportunities for industry. Take for 
example, the Mobile Biometrics Program. The recent Stockton Latent 
Print Mobile Pilot, concluded in fiscal year 2014, demonstrated the 
results of putting mobile latent fingerprint capture devices in the 
hands of law enforcement. Using this force-multiplying technology, 
latent prints were collected from crime scenes then matched against the 
local fingerprint search database in as little as 2 minutes. For such 
projects, even if a Federal acquisition does not result, game-changing 
solutions using products, technologies, and new processes may be 
developed and made available to serve State and local law enforcement 
needs.
    The Biometric Identification at Sea pilot with the Coast Guard, 
features fingerprint collection and database search using mobile 
devices, during alien migrant interdiction operations in what is known 
as the Mona Passage in the Caribbean Sea. Utilizing wireless transfer 
of data and back-end matching to the OBIM/IDENT database, the project 
resulted in several watch list hits in just the first weeks.
    In building on such successes we see value in many aspects of the 
strategic plan's proposals to further partner with and engage the 
Homeland Security Enterprise, such as jointly-staffed Innovation 
Centers within DHS components aimed at improving coordination of 
internally-funded component research, late-stage technology development 
and technology transfer.
    The strategic plan calls for ramping up to a ``surge effort'' on 
engaging the Homeland Security Industrial Base by fiscal year 2016. In 
order for this to be successful, we have several suggestions for areas 
of improvement.
                       industry as a stakeholder
    When engineered systems are being developed and evaluated, versus 
stand-alone devices, it is critical that industry be considered a 
stakeholder in the development process and have an opportunity for 
input on any end-to-end analysis.
    Clear guidelines and assurances need to be provided to DHS S&T 
personnel with respect to communications with industry participants. In 
some cases there is a reluctance or fear that sharing information could 
violate acquisition regulations or other rules, which is usually 
unfounded. This contributes to a culture biased towards restricting 
access to technical information and other data that would be helpful to 
industry in efforts to meet the needs S&T has identified. It would be 
helpful, in any legislation re-authorizing the directorate, for 
Congress to affirm the appropriateness of communications with industry 
that will help improve program results and ultimately the success of 
any subsequent acquisition.
    Further, improving the identification of high-priority operational 
requirements and capability gaps from DHS component agencies, as 
envisioned in the strategic plan, is extremely important. Equally 
important is the communication of this information on needs to 
industry, and we recommend that it be shared in a systematic way with 
industry partners. If information on needs is shared openly, industry 
is far more likely to be able to deliver solutions that solve problems 
in the real world.
       improving the value proposition of doing business with s&t
    S&T project results ultimately help inform component agency 
decision making on whether to pursue acquisition, and if pursued which 
solutions should be acquired versus ruled out. However, some of our 
members point out that historically, few S&T projects have led to a 
successful acquisition program. There is also some skepticism as to 
whether DHS components are fully committed to the S&T projects they are 
involved with, due to the risk a component could choose solutions 
developed through internally-funded research programs. While a level of 
disconnect between S&T and its customers is undoubtedly due in part at 
least to the fragmented nature of DHS, it is encouraging to see an 
acknowledgement of this as an issue and several proposals in the 
strategic plan on how to better coordinate.
    We know S&T is grappling with the fact that as a research 
organization, the directorate's portfolio is expected to include a mix 
of high-risk/high-reward projects that explore extreme approaches to 
component business/mission challenges, and actionable results that that 
inform or initiative acquisition.
    One of the biggest challenges faced by S&T leadership, as well as 
Congress in seeking to provide guidance through re-authorization 
legislation, is how to prioritize and balance the S&T research 
portfolio. Our members feel that, given the limited size of the S&T 
budget, the portfolio may be too wide, causing projects to be funded at 
levels insufficient to be concluded in a timely or successful way. 
Here, S&T appears to be moving in this direction. Under the strategic 
plan, S&T estimates that the total number of portfolio projects would 
be reduced as funding shifts to higher-priority programs.
                    communications on opportunities
    Communications to industry on opportunities has increased, but it 
is still fragmented and in need of better coordination. As S&T appears 
to have provided in a preliminary way within the recent strategic plan, 
it would be extremely helpful to provide a time line for achieving 
project stages as well as deliverables to DHS components.
    It takes considerable time and effort to respond to RFIs and 
requests for white papers. S&T should close the feedback loop by 
providing confirmation and/or responses that would help industry steer 
research and product development priorities. Further, the recent 
increase in number of industry days, speaking engagements, and webinars 
led by S&T leaders has provided increased opportunities for 
communication with industry and this trend should continue.
                               conclusion
    What we have heard from S&T leadership on plans to improve industry 
engagement is very encouraging. Ultimately what matters is whether the 
strategy can be carried out in a meaningful way. We have identified 
improving the business case for industry involvement, ensuring 
stakeholder input from technology vendors, and communications 
improvements as key elements to success.
    As part of an effort to increase outreach to industry, the Science 
and Technology Directorate signed a unique memorandum of understanding 
(MOU) with the Security Industry Association in September 2013, 
intended to facilitate information sharing that would help ``promote 
the adaptation of electronics-related technological innovation at the 
Federal, State, and local level for homeland security applications.'' 
SIA is committed to helping facilitate such communication and 
productive relationships with industry.
    On behalf of the Security Industry Association, I appreciate the 
opportunity to provide collective input from our industry on both the 
challenges and great opportunities of working with S&T. We stand ready 
to answer any additional questions or provide any additional input you 
may need as you craft legislation re-authorizing the DHS Science and 
Technology Directorate.

    Mr. Ratcliffe. Thank you, Mr. Parker.
    The Chairman now recognizes Mr. Pearl, for 5 minutes, for 
his opening statement.

   STATEMENT OF MARC A. PEARL, PRESIDENT AND CHIEF EXECUTIVE 
    OFFICER, HOMELAND SECURITY AND DEFENSE BUSINESS COUNCIL

    Mr. Pearl. Chairman Ratcliffe, Ranking Member Richmond, my 
name is Marc Pearl. I serve as the president and CEO of the 
Homeland Security and Defense Business Council which is a 
nonpartisan, nonprofit industry organization.
    Our members include the leading large, mid-tier, and small 
companies that provide the homeland security and homeland 
defense technology, product, and service solutions to DHS and 
other Government entities, as well as in the commercial market. 
We thank you for giving us this opportunity to appear before 
you this morning to provide our perspective on the S&T 
Directorate's engagement with industry.
    Our head testimony which as you have said is now going to 
be included in the record highlights three things: The progress 
that S&T has made as a result of the under secretary's 
leadership and its impact on industry, the key challenges that 
still remain at the directorate, and lastly, a few 
recommendations on what could be done to encourage even more 
effective engagement with industry as well as what we believe 
would be greater success with S&T.
    With regard to positive steps forward, our written 
testimony describes a number of areas that show how the S&T 
Directorate's work is working hard to increase transparency and 
communication--two areas that I would like to highlight.
    Last month, as Mr. Parker said, the S&T released its 
updated 5-year strategic plan, probably the best one that has 
ever been put forward. It includes capability roadmaps and 
specific objectives delineated by fiscal year. These capability 
roadmaps are a necessary and important first step in creating a 
process that will help companies align their individual 
investments to where the Government needs help.
    Second, the directorate is also encouraging greater 
involvement of both DHS components and industry through its 
APEX programs. These programs are vital to help integrate an 
operational perspective, and I want to emphasize, an 
operational perspective, into S&T's work earlier in the process 
and helping create a deeper connection between the directorate 
and the components who are the end-users.
    If successful, the APEX programs will help establish a 
credibility and relevance for S&T which in turn may increase 
industry's desire to work more actively with the directorate.
    Despite this progress, the directorate still faces a number 
of uphill challenges which I outlined in the written testimony 
that impact its ability to effectively engage with and motivate 
industry in a manner that allows it to accomplish its mission, 
particularly: Budget constraints, a lack of understanding its 
audience, and an inability to make the business case for 
industry involvement.
    Because of budget cuts, S&T has been forced to ask the 
private sector to spend its own resources on research and 
development, to spend additional resources demonstrating its 
capabilities at a Government-sponsored venue and then maybe 
they will consider buying it.
    As a result, the directorate has lost its relevance to many 
mid to large companies because they are, there just is not a 
compelling enough business case for their interest, for their 
involvement, or their investment in the directorate's work. 
Absent the promise of a future market or acquisition, why 
should industry spend its money in this way?
    My written testimony goes into greater detail with respect 
to recommendations that could help tackle some of these 
challenges, but briefly: The directorate could take more time 
to better understand the market dynamics of the homeland 
security industrial base; in order to build a market case to 
determine what types of industry incentives are needed, it 
could visit leading-edge private-sector labs to learn more 
about industry's R&D; it could develop an industry engagement 
strategy for the APEX programs and do a better job of sharing 
their tactical business plans; and lastly, it should be 
encouraged, whatever way, shape, and form to find new and 
better means of ensuring greater integration of the components 
into its work.
    So, in conclusion, the work of this S&T Directorate is 
vital and it is important. The Homeland Security industrial 
base very much wants to be a partner in its mission and help it 
succeed. We believe Dr. Brothers' plan is leading the 
directorate in the right decision, but even more can be 
accomplished if S&T focuses some time on understanding its 
audience and its current work, builds a business case, and 
creates incentives.
    As a result, there would be a much better chance that 
industry will step up and direct their work towards the needs 
of S&T and the Department as a whole.
    Congress, may I say at the end, can also play an important 
role by supporting S&T in its effort to become more relevant to 
the Department and the industry. You could either increase its 
funding or narrow the scope of its work. You could enhance its 
authority over the components or promote even closer 
cooperation and integration between the directorate and the 
components.
    These are just some of our recommendations and our 
oversight. On behalf of the members of the council, I 
appreciate the opportunity to provide this collective 
perspective of our members on S&T's engagement and look forward 
to answering any questions that you might have.
    Thank you.
    [The prepared statement of Mr. Pearl follows:]
                  Prepared Statement of Marc A. Pearl
                              May 19, 2015
    Chairman Ratcliffe, Ranking Member Richmond, and distinguished 
Members of the subcommittee, my name is Marc Pearl, and I am the 
president and CEO of the Homeland Security & Defense Business Council 
(Council), a non-partisan, non-profit industry organization that is 
made up of the leading large, mid-tier, and small companies that 
provide homeland security and homeland defense technology, product, and 
service solutions to DHS and other Government and commercial markets. 
We thank you for giving us the opportunity to appear before you today 
to provide our perspectives on the DHS Science and Technology (S&T) 
Directorate's engagement with industry.
    The mission of the Council is to sponsor and promote programs and 
initiatives that encourage greater and more effective communication 
between Government and industry. We seek to facilitate a dialogue that 
can inform the implementation of policy and process, help address 
mission challenges, and improve the management and organization of DHS. 
We often bring both sides together to gain a greater understanding of 
each other's perspectives and processes so we can identify improved 
ways of doing business together. In this regard, we have a history of 
working with S&T to discuss the best ways of engaging with industry to 
develop and find advanced technologies.
    Effective engagement with industry is a priority area of interest 
for the Council. In 2014, we developed a ``Framework for Government--
Industry Engagement Through the Planning and Execution of the 
Acquisition Process.'' Through this effort, our member companies have 
worked closely with the DHS directorates and components to identify 
critical points of communication throughout the different stages of the 
acquisition process (which includes pre-acquisition strategic and 
business planning), the challenges and barriers to communication, and 
to share best practices and options for effective methods and forums 
for engagement. Many of the lessons learned from this initiative apply 
to S&T.
    The Council's testimony today will focus on the progress that S&T 
has made as a result of Dr. Reginald Brothers' leadership and how it 
impacts industry, the challenges that still remain, and our 
recommendations for what can be done to encourage more effective 
engagement with industry, as well as greater success for the 
directorate.
    In September of 2014, Dr. Brothers testified before this 
subcommittee and outlined his vision and six priority areas of focus 
for the directorate, which included:
    1. Visionary goals that serve as 30-year horizon points to build 
        towards.
    2. A 5-10 year strategic plan which would provide a nearer-term 
        roadmap for how the organization seeks to achieve its visionary 
        end goals.
    3. An updated and balanced R&D portfolio that includes APEX 
        programs, technology engine programs, and other focused 
        programs not captured under one of these umbrellas.
    4. A refined process for identifying capability gaps.
    5. An empowered 21st Century workforce with multi-lingual program 
        managers that can slide between operational and technical 
        environments.
    6. The ability to foster deeper engagement and transparency with 
        the homeland security industrial base.
    Industry is a critical stakeholder and partner in S&T's mission and 
each of these priorities impacts industry's ability and willingness to 
engage with S&T.
                          progress within s&t
    While S&T has not yet accomplished all of these goals, there have 
been a number of positive changes at S&T that show progress in Dr. 
Brother's priority areas of focus. He should be applauded for the 
following proactive efforts that demonstrate that S&T is trying to 
improve transparency and communication with industry.
  <bullet> Release of S&T's Visionary Goals and 5-Year Strategic 
        Plan.--Through the release of S&T's long-term visionary goals 
        and its recently-published 2015-2019 Strategic Plan, S&T has 
        established the necessary framework to help guide the mid- to 
        long-term future of the agency. The updated strategic plan is 
        probably the best that S&T has ever put forward, in part 
        because it includes capability roadmaps and specific objectives 
        that are delineated by fiscal year. While more communication is 
        still needed, the capability roadmaps are an important first 
        step in developing a process that helps private companies align 
        their own investments to where the Government needs help. The 
        visionary goals and strategic plan provide a basic blueprint 
        for the Government's future needs and allows the time for DHS 
        and industry to have the necessary conversations required to 
        align resources.
  <bullet> Greater Involvement of the Components and Industry through 
        Apex Programs.--One of the positive impacts of S&T's focus on 
        Apex programs is the involvement and commitment by senior 
        leaders of the DHS operational components. The collaborative 
        nature of these programs is important because it helps 
        integrate an operational perspective into S&T's work earlier in 
        the process and creates greater connections between S&T and the 
        end-users. If successful, this type of partnership will help 
        build credibility and relevance for S&T, which in turn may 
        increase industry's desire to work with the directorate.
    We have also seen more outreach to industry through the Apex 
        programs. Last October, the Council coordinated an industry 
        tour with S&T and Customs and Border Protection at the Maryland 
        Test Facility of the Apex Air Entry Re-Exit Engineering (AEER) 
        Program. This program has used a series of briefings, webinars, 
        work sessions, and industry events to promote transparency 
        while developing a collaborative environment in which 
        stakeholder expertise and best practices are solicited and 
        incorporated into proposed solutions. Tours are an excellent 
        way of helping industry see and better understand the 
        operational working environment for technologies. In addition 
        to tours, the Apex AEER program solicits industry information 
        and ideas through an email address and uses information 
        submitted to determine which companies to meet with in one-on-
        one discussions.
    The S&T explosives division is hosting a Checkpoint Industry Day 
        next month to discuss with stakeholders in an open forum the 
        specific intentions of S&T and TSA regarding the newly-
        authorized Apex Checkpoint Program. It is encouraging to see 
        outreach that is intended to solicit input and ideas from all 
        stakeholders. We hope though that this Industry Day is not the 
        only forum for engagement with industry. Group events are an 
        important starting point for pushing out information and 
        encouraging dialogue, however there are certain things that 
        industry will not discuss in this type of setting. S&T should 
        follow up with one-on-one meetings with relevant companies to 
        ensure it gains the information it needs to formulate 
        investment plans for checkpoint technologies and architectures.
  <bullet> More Information Available Through Website.--There is a 
        noticeable difference in the amount and type of information 
        that is now publicly available on the S&T website. It includes 
        information on its strategic direction, descriptions of its 
        major programs and each of the component parts that make up 
        S&T, identifies senior leaders, provides contact information 
        for program managers, lists business opportunities, and 
        includes upcoming events, press releases, blog entries, 
        articles, videos, and other archived stories. This collection 
        of information is valuable to those in industry who are seeking 
        to better understand what S&T is working on, how it operates, 
        and who to contact if they have questions.
  <bullet> S&T National Conversation.--The National Conversation is a 
        series of on-line and in-person discussions designed to bring 
        together multiple and diverse stakeholders that play a role in 
        innovating solutions for homeland security challenges. While it 
        is still early in the process to determine the effectiveness of 
        these tools, it is an example of S&T trying to use cost-
        effective forums and technology to gain insight and 
        perspectives from all stakeholders in a collaborative 
        environment.
  <bullet> Increased Number of Webinars.--In the appropriate 
        circumstances, webinars are a cost-effective tool to push out 
        information to a large number of people because DHS does not 
        need to spend the time and money on event planning or acquiring 
        a large venue. Industry also saves time and money by not having 
        to send employees to events that may require travel and 
        extensive time out of the office. Over the past 2 years, there 
        has been a noticeable increase in webinars that include joint 
        participation by the components. This is one example of 
        improving information sharing with both industry and other 
        stakeholders.
                     challenges and recommendations
    Despite this progress, S&T still faces a number of daunting 
challenges which impact its ability to motivate and effectively engage 
with industry in a manner that allows it to accomplish its mission. 
These challenges include budget constraints, a lack of understanding of 
its audience, the lack of a business case for industry involvement, and 
its ability to closely coordinate and integrate its work with the 
components. We believe that these challenges can be addressed through a 
combination of the following actions: Taking the time to understand the 
market dynamics of the industrial base, creating industry incentives, 
learning about industry R&D, developing greater transparency and more 
effective communication with industry through tactical business plans 
and industry engagement strategies, finding ways to ensure greater 
integration of the components into S&T's work, and focusing on what can 
be accomplished with limited resources.
    After a peak budget award in fiscal year 2006, S&T experienced a 
series of decreasing and fluctuating budgets, particularly in fiscal 
year 2011-fiscal year 2012, when it received its lowest budgets ever. 
While its budget did increase in fiscal year 2014, the lack of an 
adequate, stable, or predictable funding picture over the years has 
created a number of interrelated problems.
    Due to the budget cuts, many mid- to large-size companies lost 
interest in engaging with S&T because it has had difficulty making an 
attractive business case for their involvement. The budget constraints 
have forced S&T into a trap that other resource-constrained Government 
R&D organizations fall into, in which they want industry to spend its 
own resources on R&D, and then spend additional resources demonstrating 
its capabilities at a Government-sponsored venue, even when there is no 
clear return on investment that would motivate that behavior. Most 
industry providers do not have the time or money to invest in 
speculative R&D unless they are convinced it will translate directly to 
component acquisition or another market. Without an understanding of or 
promise of a future market or acquisition, industry will not spend its 
money in this way.
    While the release of the S&T Strategic Plan is a necessary and 
important first step in communicating future priorities, the plan 
currently lacks the context of S&T's resources, its ability to 
implement the contents of the plan, and an understanding of the private 
sector. It is not yet credible. Industry will not align its investments 
in R&D until there is follow up communication that demonstrates that 
S&T understands its audience, has a tactical business plan that aligns 
with budget realities to accomplish its goals, and can demonstrate 
incentives and a business case to motivate industry.
  <bullet> Build a Business Case and Tailor Message to the Appropriate 
        Audience.--S&T tends to focus on trying to identify 
        technologies and capabilities without regard to the kinds of 
        companies that participate in that market. The market dynamics 
        for building a business case vary depending on the type and 
        size of company. To be successful, S&T's messaging needs to be 
        targeted to the appropriate audience. They should not be 
        talking to systems integrators about innovative technology or 
        talking to small companies about large systems integration. S&T 
        should take the time to gain a better understanding of the 
        market dynamics of the industrial base and tailor their 
        communication and engagement to the appropriate audience based 
        upon the need they are trying to solve.
    One way to learn more about the industrial base is to consult with 
        industry associations like the Council and other membership 
        organizations that serve niche markets. These groups can 
        provide information on different segments of industry as well 
        as help push S&T's message out to the right audience.
  <bullet> Learn More About Industry's R&D Work.--Large companies spend 
        a tremendous amount of money in R&D and would welcome the 
        opportunity to share their future technology direction and 
        potentially direct research towards projects in areas where the 
        Government has specific needs. The release of the S&T Strategic 
        Plan helps provide information to industry on future direction, 
        but it is also critical for S&T to engage with industry so it 
        can learn more about industry IR&D. Particularly in a 
        challenging budget environment, S&T should lean towards 
        industry to create partnerships to assist them with technology 
        needs. If there are detailed future requirements and adequate 
        incentives, industry can assist DHS with additional out-of-the-
        box solutions ready for future deployment. We have heard of a 
        few large companies inviting S&T to visit their laboratories so 
        they can see and learn more about their R&D efforts, but these 
        offers have not been accepted. It would be beneficial for S&T 
        to host more industry days focused on specific technology areas 
        and to visit leading-edge private-sector laboratories to learn 
        more about the R&D that is taking place.
  <bullet> Create Incentives for Industry Involvement.--S&T has been 
        trying to model the Department of Defense (DoD) for its process 
        innovation model. While the DoD model is robust, it is not 
        geared for a tactical law enforcement perspective and quick 
        acquisition. Without the carrot of visible available funding, 
        few vendors have the resources to engage in a protracted 
        dialogue with S&T that can be dropped at any step along the 
        way. There are many examples of vendors, particularly in 
        radiological/nuclear detection markets, that are building 
        relationships with foreign governments, obtaining a seat at the 
        table quickly and ramping up new technological solutions due to 
        the promise of immediate available funding. Many of these 
        companies say it does not pay to focus on this type of 
        innovation in the United States because there is no incentive.
    If S&T cannot make the business case for industry involvement, it 
        needs to create or seek legislation for the appropriate 
        incentives. This was the approach used by Congress and the FDA 
        when it created new business models and incentives for the 
        development of drugs and other medical interventions for rare 
        diseases through the adoption of the Orphan Drug Act of 1983.
  <bullet> Develop an Industry Engagement Strategy and Tactical 
        Business Plans for Apex Programs.--There are two important ways 
        that S&T can expand on transparency and communication with 
        industry related to its Strategic Plan. We believe that S&T 
        should develop an industry engagement strategy for how it will 
        introduce and roll out its Apex programs and it should share 
        tactical business plans that explain how S&T plans to 
        accomplish its goals within each program.
    An industry engagement strategy could consist of a flexible three-
        stage process. The first stage would focus on awareness and 
        would introduce all of the Apex programs to industry in a 
        single session so that there is greater transparency into the 
        entire process and a better understanding of everything that 
        S&T is trying to accomplish across all of the programs. In this 
        stage, industry is introduced to the concept of Apex and they 
        would receive a description of each Apex program at a high 
        level. The information provided would include the purpose, 
        goals, high-level time lines, high-level process description, 
        goals for engaging with industry, and how other efforts from 
        across the Department would be tied in. By hearing about all 
        the programs in one session, industry would have a better sense 
        of which programs they have the highest interest in and may be 
        able to identify other efforts going on within DHS or in other 
        Federal agencies that relate to those efforts.
    The second stage would include engagement forums to roll out each 
        individual Apex program. These sessions would describe the 
        state of play to industry for each program and would provide 
        opportunities to discuss the state of current and emerging 
        technologies. The final stage would focus on sessions that 
        discuss specific opportunities within each program.
    As part of this engagement process, industry would be looking to 
        learn the following types of tactical information from S&T:
    <bullet> What is the time line for execution and engagement with 
            industry?
    <bullet> Who are the players and stakeholders?
    <bullet> Who from industry are you trying to target and attract?
    <bullet> What do you want to get from industry throughout the 
            process?
    <bullet> When do you want industry involved?
    <bullet> How do you plan to engage with industry?
    <bullet> What are the projects that will support this program?
    <bullet> Which projects have already started or are on-going?
    <bullet> What are the major deliverables and milestones?
    <bullet> What are the new business opportunities and incentives for 
            industry participation?
    <bullet> Who is the final end-user and likely purchaser?
    <bullet> What is the funding profile? Does this include component-
            funded projects?
    <bullet> What are the enablers and opportunities for collaboration?
    <bullet> What are DHS's challenges/risks and plan to overcome them?
    <bullet> What actions will you take to accomplish your goals?
    We know that a lot of this tactical business information is 
        available internally within S&T but has not yet been shared 
        with industry. This type of information sharing would serve to 
        help attract and motivate industry by giving them greater 
        confidence in what S&T is doing and an understanding of how 
        these programs will translate into opportunities for industry. 
        If industry had a better understanding of specific objectives 
        and challenges within these programs, it could also have an 
        early dialogue with S&T on who needs to be included in 
        engagement, impediments to getting those groups to participate, 
        how to effectively message communications, how to incentivize 
        the target audience, and the best forums for engagement.
    Currently, the information available about different Apex programs 
        is inconsistent. Many in industry do not know the specifics of 
        each program or the business plan that S&T will use to 
        accomplish its goals. We realize that the Apex programs are not 
        all operating on the same time lines and that some will be 
        complete in 2016 while others will not end until 2019 and 
        beyond. It would be helpful to have some kind of roadmap that 
        allows industry to easily determine what S&T has done so far, 
        where it is going with each program, and if changes are 
        occurring along the way.
  <bullet> Greater Coordination, Integration, and Unity of Effort 
        Between S&T and the Components.--While the Apex programs are a 
        good start, S&T still has much to do to establish value-added 
        relationships and credibility with the components. Part of the 
        problem is the lack of incentives or authority to require the 
        components to work with S&T. Some components, like Coast Guard 
        and DNDO, have separate and independent R&D budgets and 
        organizations. None of the components are precluded from 
        carrying out their own R&D activities as long as they 
        coordinate with S&T. However, there is no clear guidance on 
        what constitutes coordination and S&T has no direct oversight 
        authority into their work. Partnership with the components is 
        voluntary and based upon relationships, however close 
        coordination is necessary to develop a common vision, ensure 
        unity of effort, and reduce the potential for duplication of 
        effort. S&T cannot be successful if a disconnect exists between 
        their work and the end-users or if they fail to consider the 
        operational systems perspective. The participation of 
        components, particularly as it relates to identifying 
        capability gaps and developing operational requirements, makes 
        it more likely that research results will successfully 
        transition into the field and that S&T is working on the 
        priority needs of a component. Since acquisition authority and 
        most of the money lies within the components, it is important 
        for industry to see and understand the close coordination and 
        integration between S&T and a component, because it makes it 
        more likely that that there is a future market.
  <bullet> Increase Funding or Narrow Focus.--S&T's scope of work is 
        vast and serves a diverse group of customers. Its 
        responsibilities include a wide range of activities such as 
        funding basic and applied research, advanced development, 
        oversight of testing and evaluation, technology foraging, 
        acquisition support and operational analysis, maintenance of 
        Federal research infrastructure, and providing technical, 
        operational, and systems engineering support to the components. 
        If S&T's budget is not going to increase to an amount that is 
        adequate for its responsibilities and authorities, perhaps it 
        should have a narrower focus. Right now, S&T is trying to be 
        all things to all people and they cannot do this successfully 
        with their budget. Tough decisions need to be made on what 
        activities should be prioritized and would have the highest 
        impact to its customers. If they were able to do a few things 
        successfully, it would help build credibility with industry, 
        with the components, and with Congress.
                               conclusion
    The work of S&T is important and industry wants to be a partner in 
their mission and help them succeed. We believe Dr. Brother's 
leadership and the recently-released 5-year strategic plan is leading 
the directorate in the right direction, but there is still more to do, 
particularly as it pertains to effective engagement with industry. The 
S&T budget and the lack of a business case for industry involvement 
remain the top challenges to moving forward. There are many things that 
S&T and Congress can do to help address the impact of these issues. We 
hope that S&T is ready to build on their progress and focus on the next 
steps. If they take the time to understand their audience and its 
current work, build a business case and create incentives, that 
industry will step up and direct their work towards the needs of S&T 
and the Department. However, greater transparency and communication 
through an industry engagement strategy and the sharing of tactical 
business plans is another aspect to making this happen.
    Congress can also play a role by supporting S&T in these efforts 
with industry, by increasing funding for S&T, considering legislative 
incentives for industry, enhancing S&T's authority over the components, 
or promoting closer coordination and integration between S&T and the 
components. As a last resort, it may have to reconsider and narrow the 
scope of S&T's portfolio so that the directorate can focus on what can 
be accomplished with limited resources. We know the decisions are not 
easy, but are critical to producing results.
    On behalf of the Homeland Security & Defense Business Council, I 
appreciate the opportunity to provide the collective perspectives of 
our members on S&T's engagement with industry. The Council stands ready 
to answer any additional questions you may have on these topics.

    Mr. Ratcliffe. Thank you, Mr. Pearl.
    The Chairman now recognizes Dr. Aronson for 5 minutes for 
his opening statement.

 STATEMENT OF SAMUEL H. ARONSON, PRESIDENT, AMERICAN PHYSICAL 
                            SOCIETY

    Mr. Aronson. Chairman Ratcliffe, Ranking Member Richmond, 
thank you for the opportunity to testify today on the 
scientific community's involvement with the S&T Directorate of 
Homeland Security.
    I am a nuclear physicist and currently serve as president 
of the American Physical Society, and I thank Mr. Richmond for 
saving me a paragraph's worth of reading here because I will 
skip ahead to my concerns.
    As a director at Brookhaven National Laboratory, I had a 
large, multi-purpose research institution with world-class 
facilities and an outstanding staff possessing broad scientific 
and technological expertise, spanning the life sciences and the 
physical sciences as well as engineering. Brookhaven's 
portfolio extends from discovery-driven research like the 
origins of the universe to applied research such as exploration 
of energy technologies and problems relevant to National and 
homeland security.
    My own experience with DHS is as director at the laboratory 
and somewhat indirect in the sense of actually seeking funding 
from DHS. But, the people working at the lab provided me with 
plenty of insight into that process which I would have to say 
was mixed, at best. Unlike other Federal agencies that have 
research missions, DHS at least to the outside world and I am 
representing a different component of that outside world than 
Mr. Parker and Mr. Pearl did, seems to suffer from a lack of 
transparency and a culture that does not really encourage input 
from the Nation's outstanding science and technology community.
    I think this can be improved. It doesn't have to be this 
way and a simple step toward that is to look at what other 
agencies and departments with research agendas do in that 
regard. Other agencies such as the National Science Foundation, 
the Department of Energy, the Department of Defense, I am 
particularly familiar with the Department of Energy since the 
laboratory is funded by the Department of Energy, use their 
committees--their external committees to solicit ideas, connect 
with the science and technology community, and to develop 
programming that helps them accomplish their mission.
    The advisory committees are broadly-based scientifically. 
They meet frequently in open sessions, provide opportunities 
for public and community input and make their recommendations 
very widely known. I know for a fact that the Department of 
Energy's Office of Science actually lives by these 
recommendations.
    By contrast, DHS' advisory committee is a small committee 
with a fairly narrow base and it meets infrequently and almost 
always in closed sessions. It doesn't make its recommendations 
easily accessible to interested parties, which include the 
science and technology community as well as industry.
    By allowing the committee to operate in such a fashion, I 
think DHS is missing an important opportunity to engage the 
best scientific and technical minds to help the Department 
achieve its mission. The core missions themselves are daunting, 
preventing terrorism and enhancing security, securing and 
managing our borders, and forcing and administering our 
immigration laws, et cetera.
    Each of these requires the best science and technology the 
Nation can muster. Collectively, they require scientific 
contributions from a broad multiplicity of disciplines, and the 
present composition of the S&T advisory committee is not really 
up to the task of representing and providing input from that 
broad constituency.
    So, what should be done? First, the S&T advisory committee 
should be expanded to embrace a broader and more balanced 
membership, reflective of DHS' own diverse scientific and 
technological needs. I don't feel it does that at the present 
time. Second, an expanded advisory committee should play a more 
proactive role, providing external advice to the under 
secretary for science and technology.
    Third, the under secretary himself should make greater use 
of the advisory committee and actively seek its advice, charge 
it to perform studies, request assistance and long-term 
planning, et cetera. I emphasize the word ``external''. This is 
an interested but separate community whose work underpins much 
of the science and technology of DHS.
    Fourth, the advisory committee should conduct its work in a 
more transparent manner with meetings open to the public where 
feasible and Unclassified documents should be posted on the 
website in a timely way so that the public as well as Members 
of Congress can easily access them.
    Finally, the charter of the committee should be sharpened 
to provide a more detailed description of its scope and 
expected outcomes.
    In transforming the advisory committee, DHS Science and 
Technology Directorate should take its cue from the other 
Federal agencies that depend on R&D in fulfilling their 
missions. The Office of Science and Department of Defense 
provide two rather different but very good examples.
    DOE Office of Science relies on a multiplicity of 
committees, staffed from outside the Department and following 
the procedures set up in the FACA, the Federal Advisory 
Committee Act of 1972, with each committee representing a broad 
and diverse background and sets of points of view.
    The Defense Science Board, the Department of Defense works 
in a different way. It is a single committee, more like the S&T 
advisory committee, but is also very much more effective than 
the advisory committee.
    I think a more robustly constituted and more open advisory 
committee is the first step towards improving the Department's 
connection with the science and technology community, and as I 
learned from testimony already, with the rest of the interested 
stakeholders.
    I would be happy to answer any questions.
    Thank you.
    [The prepared statement of Dr. Aronson follows:]
                Prepared Statement of Samuel H. Aronson
                              May 19, 2015
    Chairman Ratcliffe, Ranking Member Richmond and Members of the 
subcommittee, I appreciate the opportunity to testify today on the 
Department of Homeland Security Science and Technology Directorate and 
its interactions with the scientific community.
    I am a nuclear physicist and currently serve as president of the 
American Physical Society, representing more than 50,000 physicists in 
universities, industry, and National laboratories. From 2006 until 
2012, I was director of Brookhaven National Laboratory (BNL), where I 
now direct the RIKEN BNL Research Center.
    As Brookhaven's director, I oversaw the operation of a multipurpose 
research institution with world-class facilities and an outstanding 
staff possessing broad scientific and technological expertise, spanning 
the life sciences, the physical sciences and engineering. Brookhaven's 
portfolio extends from discovery-driven research, such as studies of 
the birth of the universe, to applied research, such as exploration of 
energy technologies and problems relevant to National and homeland 
security.
    Although I personally have had somewhat limited direct experience 
with the Department of Homeland Security (DHS), I have known many 
scientists who have attempted to engage with the DHS Science and 
Technology Directorate. And their experiences have been mixed, at best. 
Unlike other Federal agencies that have research missions, DHS to the 
outside world suffers from a lack of transparency and a culture that 
that does not encourage input from our Nation's outstanding science and 
technology community. It doesn't have to be that way.
    Like other Federal agencies with science and technology mandates, 
DHS has an advisory committee that is intended to help the Department 
develop and manage its S&T portfolio. But, from all appearances, it is 
quite dysfunctional. Other agencies, such as the National Science 
Foundation and the Department of Energy, with which I am very familiar, 
use their committees to solicit ideas, connect with the science and 
technology community and develop programming that help the agencies 
accomplish their missions. The advisory committees are broadly-based 
scientifically, meet frequently in open sessions, provide opportunities 
for public commentary and make their recommendations widely known.
    By contrast, the DHS S&T Advisory Committee comprises only six 
members drawn from a narrow, parochial community. It meets 
infrequently, almost always in closed session, and does not make its 
recommendations easily accessible to interested parties. By allowing 
the committee to operate in such a fashion, DHS is missing an 
opportunity to engage the best scientific and technical minds to help 
the Department achieve its goals.
    The Department's core missions are daunting: Preventing terrorism 
and enhancing security; securing and managing our borders; enforcing 
and administering our immigration laws; safeguarding and securing cyber 
space; and ensuring resilience to disasters. Each one of them requires 
the best science and technology the Nation can muster. Collectively, 
they require scientific contributions from a multiplicity of 
disciplines. The present composition and operation of the S&T Advisory 
Committee is shortchanging the Department and needlessly placing 
Americans at future risk.
    What should be done?
    First, the S&T Advisory Committee should be expanded to embrace a 
broader and more balanced membership, reflective of DHS's diverse 
scientific and technological needs.
    Second, an expanded Advisory Committee should play a more proactive 
role in providing outside advice to the under secretary for science and 
technology.
    Third, the under secretary should make greater use of the Advisory 
Committee, actively seeking advice, commissioning studies, and 
requesting assistance with long-term planning from people who are not 
part of his or her inner circle.
    Fourth, the Advisory Committee should conduct its work in a more 
transparent manner, with meetings open to the public, to the extent 
feasible, and Unclassified documents posted on the DHS website on a 
timely basis so that the public and Members of Congress can easily 
access them.
    Finally, the charter of the Advisory Committee should be sharpened 
to provide a more detailed description of its scope and expected 
outcomes.
    In transforming the Advisory Committee, the DHS Science and 
Technology Directorate should take a cue from other Federal agencies 
that depend on research and development in fulfilling their missions. 
The Department of Energy's Office of Science and the Department of 
Defense provide two good examples.
    The DOE Office of Science relies on six committees--comprising 15 
to 24 members each--that follow procedures established by the 1972 
Federal Advisory Committee Act, with each committee representing a 
balance of viewpoints and diversity of backgrounds. The Department of 
Defense relies principally on one advisory committee, the Defense 
Science Board (DSB) with 32 external members chosen on the basis of 
their preeminence in the fields of science and technology relevant to 
the DOD mission.
    A DHS S&T Advisory Committee more robustly constituted would help 
the directorate maintain continuity in its programming, better capture 
the expertise of the Nation's research community and instill greater 
confidence in its work.
    Thank you. I am happy to answer any questions you may have.

    Mr. Ratcliffe. Thank you, Dr. Aronson.
    The Chairman now recognizes himself for 5 minutes of 
questions.
    My first question relates to Dr. Brothers' public statement 
that developing a homeland security industrial base is one of 
his top priorities as under secretary. In that regard, he has 
referenced the success of the defense industrial base at the 
Department of Defense as an example.
    I would like to start with you, Mr. Pearl. You mentioned 
this briefly in your testimony. But from an industry 
perspective, can you give us your thoughts on the progress of 
this goal and what are some of the things that S&T could be 
doing better to develop this industrial base?
    Mr. Pearl. Thank you, Mr. Chairman.
    I think what first needs to be pointed out is that while we 
have internally discussed the concept of a homeland security 
industrial base, up until Dr. Brothers' testimony last fall, 
the phrase could not be found even over the last 13, 14 years 
since 9/11, most certainly, but since the formation in 2003 of 
the Department. There was--there is no concept of a homeland 
security industrial base and we have had internal discussions 
within our industry on whether or not it can and should it 
mirror the DOD model.
    In many respects, it is very difficult and I think that we 
have to approach that. Notwithstanding Dr. Brothers coming out 
of DOD and Secretary Johnson and his chief of staff, this is 
not a DOD-lite organization, I think, that you probably have 
come to realize. In many respects, it mirrors a law enforcement 
organization.
    There is also the history of using the term ``industrial 
base'' which came out of World War II with the need to make 
sure that there was an industry and there were labs even at 
peace time, able to kind-of get us to where we needed to be and 
in a time of emergency.
    So, we take that very seriously when the Government starts 
calling the industry, the enterprise a homeland security 
industrial base. In many respects, it is not building tanks and 
fighter jets. It is almost like an intellectual base as opposed 
to an industrial base.
    But that having been said, what the under secretary does 
realize is that there is an opportunity to reach out beyond 
just the National labs to excite, encourage industry. I would 
like him to include large and mid-tier companies beyond the 
small because there are a lot of opportunities that are going 
on there as well, but the context of industry being able to 
support the homeland security enterprise, not with subsidies, 
but with in essence, its creativity, its innovation, its 
capability set, its experience.
    So that, in many respects, just setting the tone, I think, 
is--as I think we have all said, a great first step. What has 
to come is that the policy has to turn into a reality and that 
is what we are all looking for--an operational deployment 
implementation plan that is not just a policy plan that looks 
good and sounds good, but doesn't get us to where we need to 
go.
    Mr. Ratcliffe. Thank you, Mr. Pearl.
    Mr. Parker, I would like to give you an opportunity to 
respond to the same question or expound on what Mr. Pearl just 
related.
    Mr. Parker. Well, I guess I would echo Mr. Pearl's comments 
and that there could be more participation from mid-sized and 
large companies and it is something that I think is necessary. 
Of course, small business engagement is something that is very 
important, as well.
    But, I think with the homeland security industrial base, 
what that really gets at is having a stable source of 
technology development. You know, I think in cases where you 
have a lot of entry and exit from a market, that can interfere 
with having a stable source to go to. So, I would echo his 
comments.
    Mr. Ratcliffe. Thank you, Mr. Parker.
    Dr. Aronson, the Centers of Excellence within S&T are meant 
to engage academic institutions, specifically consortium of the 
universities, to address specific research and technology 
development issues relevant to homeland security.
    There seems to be a mix of basic and applied research 
centers and others are more targeted to incremental technology 
development. My question to you is: Do you think there is an 
appropriate balance of research activities and developmental 
activities?
    Mr. Aronson. If the question is--is S&T possessed of an 
appropriate balance, I would say the answer is no. I think 
there is a limited capacity to devote resources to longer-
range, medium-range, and long-range issues that probably depend 
more on scientific and technological input and some of the more 
incremental and--or shorter-term activities.
    While I understand the needs to put the right tools, 
robust, and easy-to-use, and cutting-edge tools in the hands of 
first responders, and that is a top priority for the 
Department. But there has to be more, in my opinion, look ahead 
at evolving threats and more emphasis on technologies that are 
in a pipeline that I don't think industry can afford to drive. 
The National labs and academic institutions are more set up 
that way, and it seems to me that that balance has not been 
struck yet.
    Mr. Ratcliffe. Thank you, Dr. Aronson. My time has expired 
on this first round of questions. The Chairman now recognizes 
the Ranking Member, Mr. Richmond for 5 minutes of questions.
    Mr. Richmond. Thank you. I will address this to all three 
and we will just go from my right to left and start with Dr. 
Aronson and end with Mr. Parker.
    Over the years this subcommittee has spent a lot of time on 
S&T issues. Like I said early in 2009 to 2010, we did a 
complete staff review of S&T and a comprehensive bipartisan 
bill was passed out of committee and went on to be passed 
unanimously by the House of Representatives.
    One of the things we asked then, and continue to ask for, 
is a clear and transparent mission statement and listing of 
goals, so industry, academia, and the public at large can 
understand what the goals of the directorate are.
    In your opinion, what are the three most important things 
the S&T directorate does or should be doing and how does the 
scientific community and industry at large know, or will know, 
when S&T is succeeding at doing them?
    Mr. Aronson. Thank you for the question. In my opinion, the 
three most important issues for the S&T directorate are these: 
To ensure that the DHS components, in particular the first 
responders, are able to address the evolving homeland security 
challenges that face our Nation with, as I said earlier the 
most up-to-date, robust, and easy-to-use technologies that are 
on offer.
    Second, to make full use of our Nation's scientific and 
technological minds and facilities in pursuit of those 
technologies, and third to anticipate medium- and long-term 
homeland security challenges by funding more high-risk, high-
reward RND to produce game-changing scientific breakthroughs 
and innovations.
    With regard to your second question, I think the under 
secretary has to proactively lay out in a clear and concise and 
transparent manner the directory's near- and longer-term goals 
and how the roster of activities proposed in the strategic plan 
accomplish those goals. Doing so might include benchmarks, how 
those benchmarks are reached and how and when goals are 
accomplished; in other words, transparency about the plan and 
its state of accomplishment.
    Again, this should entail communicating not only within the 
homeland security community but more broadly with the wider 
science and technology community, the public, Members of 
Congress and others of the stakeholders.
    Mr. Richmond. Mr. Pearl.
    Mr. Pearl. Mr. Richmond, I guess the question--your first 
question in terms of the most important things comes--is a two-
part question; one is for S&T and then, one is the most 
important things for industry.
    I mean it is time for me to be a little selfish and 
reflecting as well. With respect to the things that the 
director can do, they have to do the things that are most 
beneficial and of most value to their customers, which is in 
essence the components that are within DHS.
    The decisions need to be coordinated and decided by the 
customers. It can't be done outside and what they produce in 
the fastest and available time with the least amount of 
dollars. That is where from an industry standpoint we would 
differ with the scientists. DHS has to in essence, unlike DOD, 
get stuff done now.
    You as Members of Congress, as citizenry wants it done 
yesterday and it is not a long-range, you know, the long-range 
testing and the way that a strategic plan might be usually 
viewed upon.
    But the industry in the end can't decide what those 
priorities are. It is a partner but the end-user. From an 
industry perspective we are saying, No. 1, there needs to be 
built a business case for industry to be involved in what is 
going on.
    No. 2, as I think it has been said by all of us, we have to 
increase transparency and communication across the board 
through a sharing of tactical business plans that explain how 
they plan to accomplish those goals, and No. 3, find more ways 
to increase collaboration with the components.
    If those three things are the most important one, we as 
industry are not going to direct what those priorities are for 
the Department, for the Secretary, for the President. But we 
then can respond accordingly with the best, most effective, and 
most efficient solutions.
    Mr. Parker. I do agree with what Mr. Pearl said and not to 
duplicate his comments, I will add few other things I think are 
at the core of the mission. One is to make sure that the DHS 
components have the tools and information they need to make 
decisions about what technology to deploy or not, depending on 
the results.
    I think that, you know, there is an enormous amount of 
innovation going on in the security industry, the commercial, 
developed for commercial and international markets.
    You know, from our perspective, one of the types of S&T 
projects that have had the most success is where you are 
integrating essentially off-the-shelf technology developed 
commercially into a system or solution to fulfill an urgent 
operational need in the components.
    So, I think being able to harness that innovation is a key 
element of the mission.
    Mr. Richmond. Thank you. I yield back.
    Mr. Ratcliffe. Thank the gentleman and I recognize myself 
for an additional 5 minutes of questions.
    Mr. Pearl, I would like to start with you again. I 
mentioned this in my opening statement. S&T has a number of 
programs, offices, and initiatives to work with small and 
medium-sized businesses like the S&T small business innovation 
research program, the technology transfer program, and the 
commercialization office.
    I would like to know: What experience do your stakeholders 
have with these programs and are they effective in working with 
industry from your perspective?
    Mr. Pearl. Well, I don't want to speak to maybe any one 
particular one like the SBIR program. In many respects, some of 
our small businesses have been involved in it. Sometimes, they 
invite one or two large businesses to do a kind-of lecture or 
discussion.
    I don't think that--I think that if we begin to draw lines 
between what your revenue is versus what your capabilities are, 
I think we get into trouble. I think DHS as a whole, this is an 
issue for all of DHS, you shouldn't just be checking a box to 
say we have hit these numbers in terms of small businesses. But 
that we have accomplished these goals and we are providing 
these solutions based on whatever size the business is and we 
need to work with you and the full committee on getting to 
that.
    But having said that there have been a number of instances, 
the APEX program that I talked about. There is out in Landover 
a special entry/exit reengineering program, an APEX program 
that they are testing on site what that looks like.
    We were the first organization to be able to bring a group 
of companies that were not necessarily submitting to that plan 
that S&T is running with CDP, but we could see what was going 
on.
    The openness of the APEX programs and as I think my written 
testimony talked about, the more that there is this kind of 
transparency as a whole on what those APEX programs are going 
to be trying to do, the better off they are.
    I am impressed with Dr. Aronson's, you know, suggestion on 
sharing information. The website now is in better shape than it 
has ever been. Just using the website, that kind of social 
media in its own way is something that has been done and our 
industry has responded.
    I think next week there is going to be an industry day that 
S&T is putting together in the Rad/Nuc arena. Bottom line is 
more and more of encouraging industry's involvement and 
awareness far to the left of needs and requirements to what is 
the problem.
    Let's all meet together, let's not push up intellectual 
property and proprietary rights. Let's just talk as an 
experienced group of scientists and the industry officials who 
have provided those solutions to talk together would be 
something that I would--I have seen beginning to happen. We 
just want to encourage more of it.
    Mr. Ratcliffe. Thank you, Mr. Pearl. So as you mentioned 
APEX programs, let me move to you, Dr. Aronson to get your 
perspective there. Under Secretary Brothers has plans to 
significantly expand the APEX programs in S&T including the 
creation of an APEX engines entity that performs crosscutting 
RND and technology development.
    I would like to know your impressions of the APEX programs 
generally, and do you think that the planned expansion is a 
good idea.
    Mr. Aronson. Well, I am not terribly familiar with the APEX 
programs, but I do believe in general the issue of risk-taking 
and interdisciplinary research are important for any program 
that is attempting to look across a range of time horizon 
points that cover both very near-term and urgent needs to 
technologies that have to develop in order to provide the 
expected capabilities for emerging threats.
    Mr. Ratcliffe. Thank you, Dr. Aronson.
    We have talked a little today about the problem of 
timeliness and contracting and awards. Mr. Parker, how would 
you suggest that S&T improve the awarding of research and 
development contracts, since in the past there typically has 
been a delay between the award and the allocation of funds?
    Mr. Parker. Well, I think just--I mean opening the lines of 
communication is a good start. I mean there is, you know, one 
of the ideas that has come to us that maybe there should be 
industry day type of events or technology summits that are 
hosted at either the S&T labs or company labs, and many 
companies have innovation labs, to foster this open dialog 
between the director and the industry.
    Mr. Ratcliffe. Thank you, Mr. Parker. My time has again 
expired, and I would like to again recognize the Ranking Member 
for an additional 5 minutes of questions.
    Mr. Richmond. Thank you, Mr. Chairman, I hope not to use it 
all. Again, I will pose this question to the entire panel and 
this time we will start from my left to my right.
    As you know this subcommittee and committee has passed some 
important cyber authorization and security legislation. One of 
the recurring issues is developing, educating, and attracting a 
diverse work force to come work at DHS.
    Can you give us some examples, specifically, probably, you, 
Dr. Aronson, of how Brookhaven, your laboratory or other labs 
have interacted with or collaborated with minority-serving 
institutions that are part of the S&T university programs, 
especially in the areas of internships, mentoring, or faculty 
exchanges?
    So however you all want to answer. I am okay with that. 
Whoever wants to jump on it first?
    Mr. Aronson. Well, since you mentioned Brookhaven my ears 
went up, and I would like to say a couple of things, but I 
would like to introduce it by saying that this is an issue for 
the entire S&T and R&D community in this country.
    We don't have a good record of inclusivity and we 
desperately need to fill the ranks of the next generation of 
scientists and engineers. Mostly I think or to a greater extent 
than before from domestic resources.
    So just out of a pure business sense it is crazy not to be 
looking for all the brightest minds in the country. At 
Brookhaven like many of the other National labs, we have a lot 
of educational programs and work force development programs 
serving K through 12 as well as college undergraduates, 
graduate students, of course, come to do their advanced 
research there.
    Even science teachers. We run programs to bring the local 
communities' science teachers to the lab to understand how 
science is really done is something I think is missing in the 
schools in general.
    A lot of our programs are targeted to minority-serving 
institutions. I am just going to mention one of them, there are 
a bunch. But we have a program we started about 8 years ago 
called INCREASE that stands for Interdisciplinary Consortium 
for Research and Educational Access in Science and Engineering.
    It trains teams from minority-serving institutions, both 
faculty and students in the use of some of the cutting-edge 
scientific facilities that the Government has paid for and we 
operate at Brookhaven National Laboratory, like our nanoscience 
center, the Center for Functional Nanomaterials, and our 
currently world-leading X-ray light source. These teams learn 
how to write scientific proposals, how to build and conduct 
experiments, how to do those experiments and analyze the data 
and publish the results.
    Basically, provide them the resources, if they can write a 
proposal that is deserving of time on those machines, they get 
the time on those machines at no cost and they get to join the 
scientific team that way. So I am extremely proud of that 
program, it is only one of a number that we do, but I will end 
by saying we have an awful long way to go in terms of 
inclusivity.
    Mr. Richmond. Mr. Pearl.
    Mr. Pearl. I think your question which went to the issue of 
science and long-range planning is something that is naturally 
in the labs and naturally in the academia world.
    To a great extent, industry is a here-and-now as DHS has 
been the components of here-and-now. What can you do for me in 
this context? The length of time that it takes to even get from 
the beginning of an identity of a problem to the solution, it 
takes so long sometimes. Sometimes there are a lot of 
inquiries, but the responses by industry going to like another 
sphere, we don't hear back from them and what is going on, that 
many companies have gone across the pond.
    My written testimony gives an example of that where they 
have, in certain areas, they can get a decision made 
particularly in radiological and nuclear detection markets much 
faster in the foreign countries and they get a seat at the 
table and they are developing aspects of R&D in the moment of 
potential business opportunity.
    So I think that to a great extent, how we get women, 
veterans, minorities, the most capable and dedicated and 
effective people who whether they are in the sciences or 
whether they are in the applications of the solutions, we have 
to do a better job.
    In the cyber bills that you have been talking about that 
are out there, we now have offices within Government that are 
competing for the top cybersecurity specialists, forget about 
what industry might be able to have in terms of expertise.
    We have to do a better-coordinated effort. That is 
something that a science and technology directorate possibly 
could take on and how do you coordinate taking the best and the 
brightest and putting them in the spots that they are most 
valuable and most needed?
    Mr. Richmond. Mr. Parker, my time has expired but if you 
can answer very quickly, I would appreciate it and I would 
yield back.
    Mr. Parker. I will just say that, you know, finding a 
qualified workforce in the science field is very challenging, 
but we have a number of members who are small or minority-owned 
businesses, veteran-owned businesses that benefit enormously 
from Federal programs that encourage their involvement, so 
thank you.
    Mr. Richmond. Okay. Thank you, Mr. Chairman, and I would 
just say for the record that just last week Google announced 
that it is going to send some of their engineers to HBCUs so 
that they can attract a more diverse workforce and work 
students and faculty.
    So with that, Mr. Chairman, I yield back and thank you for 
indulgence in letting me go over a little while.
    Mr. Ratcliffe. Thank you, gentlemen. The Chairman now 
recognizes other Members of the subcommittee for 5 minutes of 
questions beginning with the gentleman from Florida, Mr. 
Clawson.
    Mr. Clawson. Thank you. Thank you to the three of you for 
coming today, and sorry I was late, so if any of my questions 
is repetitive you all will forgive me for that.
    So I am putting this in a box in my mind and what is coming 
out is we are using public money either directly for research 
or through the small business innovation program to companies 
to try to motivate the private sector at some level to help 
solve a problem which is a public good program, security is a 
public good, right?
    So sometimes it is through universities, which is why they 
have research parks, sometimes it is--you are trying, we are 
trying to get, DHS is trying to get a private company without 
any involvement through a grant to solve a security problem 
through innovation, right, so I got that right. Okay.
    Now, I think most technological innovation is driven by the 
profit motive; that may be shorter, Mr. Pearl in your mind, and 
I understand that. There is always a mismatch of incentives 
between public and private sectors because the time lines are 
different, because the public sector doesn't have quarterly 
profits.
    So it doesn't make the private guys bad, they just have a 
different incentive? Correct. I think you are with me so far, 
right?
    Can you give me, given that that is the framework here, if 
I have understood at all, right through my study and listening, 
do we have any examples, and I know you all are not DHS and no 
one is here from DHS, where DHS is kind-of saying, look, we 
have this security problem. This is the kind of innovation we 
need. We are spending all this money to try to get a catalyst 
for that--a solution to that. Either a private company or a 
private pseudo-company through a research park or a university 
or whatever comes up with an innovation that is now in the 
security sector that I could see.
    So, yes, this is--has made the public good of security more 
secure, and the private guys have made some money and their 
shareholders were already--are also happy about that. Can you 
all give me any exam--I think that is how this is supposed to 
work. We are spending a lot of money on it.
    Am I wrong in my--in how I am viewing this? If not, can you 
give me any--knowing you all are not DHS, do we have any real 
live examples of success?
    Mr. Pearl. There are a number of individual examples and 
for the purposes of the record what I would love to do and I 
assume that Mr. Parker will do likewise is go back and talk to 
our members specifically and answer to the question about from 
our point of view from industry, what has worked.
    But the general statement is this and that is my concern--
Government only knows what Government knows. So when Government 
says, any agency says, I want this, it is only based on maybe 
the person they talk to.
    It is not based on knowledge of what exists in the market. 
It doesn't know what is going on down the road. To a certain 
extent that is the role that S&T could and should play, 
particularly with its funding of the National labs, et cetera.
    The analogy I used of 100 years ago, a department said I 
need the fastest horse, that was the RFP. Give me the fastest 
horse to get from point A to point Z. All the horse guys would 
come in, but if Henry Ford had walked in, they would have said, 
``No, no. You are not the fastest horse.''
    I think that we have got to get to a point that before we 
come up with the need, with the requirement, with the solution, 
we have to have an earlier conversation that talks about, how 
do you frame the problem? What is your problem?
    Oh, I can't get stuff from point A to point Z fast enough. 
Well, locate it at point Y might be the case. So all that I am 
saying hypothetically is that we have to have more 
communication, more discussion and get all of the players in 
who can come up with--no one company has the solution. I am 
sure a lot of my members think so, but they don't. We need to 
have that collaborative discussion.
    Mr. Clawson. So we would say before we came up with a 
strategy, we would have to understand conditions on the ground 
or the market conditions, if you will. Okay? So does that mean 
the Government comes up with the market conditions and then 
outsources the strategy given those conditions or do--or are we 
outsourcing the market conditions analysis?
    Mr. Pearl. You have to define the problem. Congress defines 
the problem. The administration through its Executive branch 
defines how it is going to best address the problem. Labs and 
the industry comes in, not to tell you what the problem is but 
to provide the solutions to what you have identified as our 
public policy leaders is the way I would see it.
    Mr. Clawson. Yes, sir. Can I continue? You are--Mr. Lee?
    Go ahead, Mr. Parker----
    Mr. Parker. Sir, I would--Congressman, I would--I have two 
examples that are kind of a little bit further down the line 
once, you know, the problem has been identified. One is years 
ago US-VISIT which is now open had a challenge, they issued a 
challenge to industry.
    They are expanding the use of biometric technology to 
record fingerprints. The type of device they were using was as 
big as a large microwave that sat on a customs officers, you 
know, desk and they said, ``We need to get this down to a 6-by-
6-inch cube size.''
    They had many other technical requirements that were very 
clear and performance requirements that were laid out. They--it 
was also, certainty was provided; it was, hey, we are going to 
buy X number of these devices.
    So then industry responded, investment occurred, and 
several prototypes were produced and one was eventually chosen 
giving the agency that capability within 1 year. So it is one 
of the, which one of the success stories of how this has worked 
out.
    In one more example, right now, there is a mobile 
biometrics program, it is using a lot of technologies that is 
developed commercially. There is one called the Stockton Latent 
Print mobile pilot where they are using--law enforcement 
officers were using mobile devices to take latent fingerprints 
from crime scenes and doing matches within a few minutes to 
fingerprint databases.
    That is something that even if the Federal Government 
doesn't develop an acquisition program directly from it, 
products will be developed that will be available for State and 
local law enforcement.
    Mr. Clawson. I yield back.
    Mr. Ratcliffe. I thank the gentleman from Florida. I would 
like to recognize my friend and colleague from Rhode Island, 
Mr. Langevin for 5 minutes of questions.
    Mr. Langevin. Thank you, Mr. Chairman. I too want to thank 
our panel of witnesses for their testimony today. It has been 
very helpful, and I am sorry that I couldn't get here sooner, 
but I appreciate what I have heard and look forward to 
reviewing your testimony further.
    So my question is--so like many members of the panel I am 
so deeply interested in cybersecurity and DHS's role in 
protecting our networks. The S&P Directorate considers itself 
the lead Unclassified cybersecurity--lead provider of 
Unclassified cybersecurity R&D in the Federal Government.
    So how does that mesh with your experiences in the industry 
and academia? I am particularly interested, Dr. Aronson, in how 
the directorate is viewed by university researchers in the 
field as it has never established an information security, 
information engineering center of excellence, which I find a 
bit curious.
    But I am very curious to hear all your perspectives on 
DHS's role in this vital area of research.
    Mr. Aronson. I think the landscape of interest in 
cybersecurity is certainly Government-wide and probably 
universal. I think it is a little difficult. I think for the 
lack of a more comprehensive R&D policy that spans departments 
in the Government for academia to address it in any coherent 
way.
    It is kind of a multi-dimensional space and people, I 
think, tend to work with agencies that they are familiar with, 
if they have the capability, and the need is there and it is--
the need is everywhere. So it is a little bit hard to see DHS 
in particular as an attractor for that.
    I think it is just--the problem, we haven't recognized the 
appropriate level or coordinated at the appropriate level.
    Mr. Langevin. Okay. Anyone else from the panel got a 
comment?
    Mr. Pearl. I would only piggyback to what Dr. Aronson said, 
Congressman, in the context of when you are talking about 
dollars as one incentive to doing it, yes, there are the 
altruistic reasons for doing it and working on cyber. Even 
academia will go where the dollars are.
    DHS is in charge of in essence the .gov space and the .com 
space as it oversees cyber. But the major amount of dollars 
going in is going more into our National security arena, so why 
would--if you are going to provide a specific need, you are 
going to go to where to a certain extent where the dollars are, 
whether it is research dollars or it is industry dollars.
    Having said that, however, I think that we need to in 
essence look at the overall aspect of specificity. Meaning, if 
Government is going to ask for something, it can't be a 
general, well come up with something that is cyber-related, and 
we will look at it. Because nobody is going to spend the time 
and the resources doing that and then nothing happening.
    There is no acquisition that comes out of it. No 
procurement that comes out of it. No even response that comes 
out of that and that is what this whole, I think what the 
Chairman has put together as a hearing is to say, how can we 
encourage S&T to in essence be more specific, more clear, more 
transparent about what it is looking for so that academia and 
industry can better respond to a specific need? In this case, I 
want to say a specific problem that exists that we then can put 
our minds to and tackle.
    Mr. Langevin. Okay. So let me--I could build off of that 
because I think it is a good segue to this question--following 
up on Chairman Ratcliffe's earlier question, Dr. Aronson in 
your prepared testimony you lament the fact that the S&T 
research is not well-guided by an independent advisory 
committee, and I am curious beyond setting priorities among 
different capabilities and threats, do you believe that this 
lack of guidance might also affect the balance of basic 
research, applied research, and development funded by the 
directorate? Do you see specific ways that balance could be 
improved?
    Mr. Aronson. Yes, I do see that that situation exists where 
there is not sufficient balance across the spectrum of science 
and technology. I believe it is because there is not good 
communications between the community that can say, you know, 
what their capabilities are, what is physically possible, what 
is, you know, reasonably buildable to inform discussions about 
priority--technology priorities or even policy priorities.
    I remember in the Department of Energy during an earlier 
phase in the cybersecurity wars, somebody came up with the idea 
that we would essentially close the Government except for two 
penetrations to the firewall to the rest of the world.
    It is an idiotic idea. But nobody asked a computer 
scientist I guess or somebody who actually uses the system. 
That is a kind of problem you can get into if you are missing a 
piece.
    I see that in the science and technology strategic plan. If 
you look at the stakeholders, there is a nice little pie chart 
that describes the stakeholders in there; there is almost 
nobody from non-Governmental or academic sectors contributing 
to the thinking about the strategic plan. That is the issue.
    Mr. Langevin. Thank you.
    Anyone else? Or I will yield back. Mr. Chairman, thank you 
very much. I yield back.
    Mr. Ratcliffe. I think the gentleman and I thank the 
witnesses for their very insightful and thoughtful testimony 
today. I thank the Members for their questions. If Members have 
additional questions for the witnesses, we will ask you to 
respond to those in writing.
    Pursuant to committee rule 7(e), the hearing will be held 
open for a period of 10 days. Without objection the 
subcommittee stands adjourned.
    [Whereupon, at 11:11 a.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

      Questions From Honorable James R. Langevin for Jacob Parker
    Question 1a. One of the areas highlighted in testimony was the 
enormity of the research space tied to protecting our homeland. During 
debate on any reauthorization bill we consider in this subcommittee, I 
am sure we will address the scope of the S&T Directorate. Assuming a 
budgetary environment that remains constrained, what should the 
directorate focus on?
    Should it have a narrow and deep focus--for instance, meeting 
immediate Departmental technological needs or funding a portfolio based 
primarily on extramural basic research?
    Answer. Response was not received at the time of publication.
    Question 1b. Conversely, should it have a broad and shallow focus 
knowing that, given budgetary restrictions, such a focus will 
necessarily preclude expertise? This will be one of the chief 
challenges facing the committee during reauthorization, and the more 
specific the guidance, the more helpful it will be.
    Answer. Response was not received at the time of publication.
    Question 2. A lot of the focus on R&D tends toward the hard 
sciences--math, physics, chemistry, computer science, etc. However, 
experience in cybersecurity domain suggests that social science 
research, such as psychology or economics, can play a vital role in 
combatting threats. Social engineering--convincing people to take 
actions that compromise their security (by, for example, clicking on a 
phishing email)--is one of the most-used cyber attack vectors. 
Similarly, the committee has spent a good deal of time studying the 
reasons that individuals become radicalized and turn to violent 
extremism, which is a sociological/psychological question at heart.
    Do you believe that social science research is an important part of 
the S&T Directorate's portfolio?
    Answer. Response was not received at the time of publication.
      Questions From Honorable James R. Langevin for Marc A. Pearl
    Question 1a. One of the areas highlighted in testimony was the 
enormity of the research space tied to protecting our homeland. During 
debate on any reauthorization bill we consider in this subcommittee, I 
am sure we will address the scope of the S&T Directorate. Assuming a 
budgetary environment that remains constrained, what should the 
directorate focus on?
    Should it have a narrow and deep focus--for instance, meeting 
immediate Departmental technological needs or funding a portfolio based 
primarily on extramural basic research?
    Question 1b. Conversely, should it have a broad and shallow focus 
knowing that, given budgetary restrictions, such a focus will 
necessarily preclude expertise? This will be one of the chief 
challenges facing the committee during reauthorization, and the more 
specific the guidance, the more helpful it will be.
    Answer. This question should not be answered in isolation and 
without the proper context. S&T's role and portfolio should be 
consistent with a Departmental view of how the entire spectrum of R&D 
is to be accomplished to meet the most critical needs. The right answer 
depends on the overall R&D strategy for the Department, which is the 
missing piece needed to guide this decision.
    For any organization, whether public or private, there is no one 
best model for R&D. The success of any R&D organization results from 
the interaction of many different factors and choices. R&D 
organizations cannot be designed to do all things equally well. Every 
approach to R&D has strengths and weaknesses that must be managed 
through a strategy.
    To best understand why a strategy is so important, I urge this 
subcommittee to read the work of Gary P. Pisano on ``Creating an R&D 
Strategy.''\1\ This working paper provides a framework for designing an 
R&D strategy. It starts with the simple notion that a strategy is a 
system approach to solving a problem. An R&D strategy is defined as a 
coherent set of interrelated choices and decisions based on: 
Organizational architecture (how R&D is structured organizationally and 
geographically), processes (the formal and informal ways that R&D is 
carried out), people (choices about human resources), and project 
portfolios (desired allocation across different types of R&D projects 
and the criteria used to sort, prioritize, and select projects). 
Performance hinges on consistent and coherent choices across all four 
components. A good strategy must also align to the realities and 
limitations of the environment and the broader organizational context 
in which they operate. To illustrate the framework, Pisano use examples 
of three pharmaceutical companies and examines how their different R&D 
strategies were rooted in different assumptions about the core driver 
of R&D performance. The examples provide an understanding about how and 
why different organizations pursue different strategies to address the 
same problem.
---------------------------------------------------------------------------
    \1\ See ``Creating an R&D Strategy,'' Gary P. Pisano, (Working 
Paper, 12-095, April 24, 2012), HARVARD BUSINESS SCHOOL. http://
www.hbs.edu/faculty/Publication%20Files/12-095_fb1bdf97-e0ec-4a82-b7c0-
42279dd4d00e.pdf.
---------------------------------------------------------------------------
    His work suggests that the very first question to be answered in 
strategy development is: What is our shared understanding of the root 
cause of the problem we are trying to solve? Another way of looking at 
it is to also ask ``what does it take to win?'' The answer to these 
questions will then drive decisions about how to organize, prioritize, 
and conduct R&D within any given organization. Finally, because a 
strategy is a hypothesis, an R&D strategy must be evaluated against 
performance data, and organizations must recognize when the time has 
come to reject their initial hypothesis and change strategies.
    In the Government context, a good example of how a strategy is 
driven by the answers to these questions is the ``2011 Federal 
Cybersecurity R&D Strategic Plan.''\2\ The direction of this plan 
relies on the hypothesis and principle that research must focus on 
addressing the root causes of cybersecurity vulnerabilities as opposed 
to just treating the symptoms. Cybersecurity is a multi-dimensional 
problem, involving both the strength of security technologies and the 
variability of human behavior. Therefore, solutions depend not only on 
expertise in mathematics, computer science, and electrical engineering 
but also in biology, economics, and other social and behavioral 
sciences. Due to these underlying principles, the strategic plan thus 
focuses on the need for expertise and resources from a wide range of 
disciplines and sectors. It is the underlying agreed-upon principles 
associated with how to address the problem that then help drive 
decisions about architecture, people, processes, and portfolio.
---------------------------------------------------------------------------
    \2\ https://www.whitehouse.gov/sites/default/files/microsites/ostp/
fed_cybersecurity_rd_- strategic_plan_2011.pdf.
---------------------------------------------------------------------------
    The Federal cybersecurity R&D plan includes four strategic thrusts 
that help organize and drive the direction of cybersecurity R&D. It 
provides a vision for the research necessary to develop game-changing 
technologies and also provides guidance for Federal agencies, 
policymakers, researchers, budget analysts, and the public in 
determining how to direct limited resources into activities that have 
the potential to generate the greatest impact. The themes compel a new 
way of doing business because they give focus to underlying causes in 
order to bring about change, which in the case of cybersecurity 
requires prioritization on interdisciplinary efforts. The plan also 
looks closely at the realities of the operating environment and the 
resources of all stakeholders. It recognizes that within that context, 
Government investment in basic research is essential because industry 
does not have the economic interest or return on investment time 
horizon to conduct that type of research. The themes present a logical 
path from research to transition, deployment, and cooperation with the 
private sector.
    As you can see from the cybersecurity example above, the answer to 
the question of what the S&T Directorate should focus on depends on an 
agreed-upon Departmental strategy for how to address an underlying 
problem set. The Department as a whole should have a balanced R&D 
program, including funding for basic research, technology assessment, 
advanced development, test and evaluation, and capability integration. 
However, the allocation of funding to each of those areas and the 
division of responsibility (among all stakeholders) for those 
activities needs to be consistent with a Departmental view of how the 
entire spectrum of R&D should be accomplished to meet the most critical 
needs. S&T should not be seen as a competitor to the components. There 
are critical questions that need to be answered about the value that 
S&T's past and current activities have and will provide to its 
customers and end-users, which activities have and will produce results 
that reduce risk and address priority problems, as well as who is best-
suited to conduct specific activities. Without a Departmental R&D 
strategy to serve as a guide, it is quite difficult to make an educated 
and informed decision on these issues and to determine what should be 
prioritized and funded.
    Question 2. A lot of the focus on R&D tends toward the hard 
sciences--math, physics, chemistry, computer science, etc. However, 
experience in cybersecurity domain suggests that social science 
research, such as psychology or economics, can play a vital role in 
combatting threats. Social engineering--convincing people to take 
actions that compromise their security (by, for example, clicking on a 
phishing email)--is one of the most-used cyber attack vectors. 
Similarly, the committee has spent a good deal of time studying the 
reasons that individuals become radicalized and turn to violent 
extremism, which is a sociological/psychological question at heart.
    Do you believe that social science research is an important part of 
the S&T Directorate's portfolio?
    Answer. Social science research is an important and appropriate 
part of the S&T Directorate's portfolio when it aligns with an agreed-
upon strategic approach to how to address a specific problem set.
    As mentioned in our response to Question 1, social and behavioral 
science research is a critical aspect to the 2011 Federal Cybersecurity 
R&D Strategic Plan because the developers of the plan agreed that 
cybersecurity vulnerabilities could not be successfully mitigated 
unless research and solutions were focused on root causes to bring 
about change. Since cybersecurity is a multi-dimensional problem that 
involves both the strength of security technologies and the variability 
of human behavior, it was critical that solutions depend not only on 
expertise in mathematics, computer science, and electrical engineering 
but also in biology, economics, and other social and behavioral 
sciences.
    Questions From Honorable James R. Langevin for Samuel H. Aronson
    Question 1a. One of the areas highlighted in testimony was the 
enormity of the research space tied to protecting our homeland. During 
debate on any reauthorization bill we consider in this subcommittee, I 
am sure we will address the scope of the S&T Directorate. Assuming a 
budgetary environment that remains constrained, what should the 
directorate focus on?
    Should it have a narrow and deep focus--for instance, meeting 
immediate Departmental technological needs or funding a portfolio based 
primarily on extramural basic research?
    Question 1b. Conversely, should it have a broad and shallow focus 
knowing that, given budgetary restrictions, such a focus will 
necessarily preclude expertise? This will be one of the chief 
challenges facing the committee during reauthorization, and the more 
specific the guidance, the more helpful it will be.
    Answer. Response was not received at the time of publication.
    Question 2. A lot of the focus on R&D tends toward the hard 
sciences--math, physics, chemistry, computer science, etc. However, 
experience in cybersecurity domain suggests that social science 
research, such as psychology or economics, can play a vital role in 
combatting threats. Social engineering--convincing people to take 
actions that compromise their security (by, for example, clicking on a 
phishing email)--is one of the most-used cyber attack vectors. 
Similarly, the committee has spent a good deal of time studying the 
reasons that individuals become radicalized and turn to violent 
extremism, which is a sociological/psychological question at heart.
    Do you believe that social science research is an important part of 
the S&T Directorate's portfolio?
    Answer. Response was not received at the time of publication.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
